                                              OFFICE OF THE
                                              SECRETARY


Office of Inspector General—Office of Audit




                                              INTERNAL CONTROLS OVER COMMISSION
                                              FOR LABOR COOPERATION SECRETARIAT
                                              ACTIVITIES NEED STRENGTHENING




                                                                       Date: April 7, 2008
                                                              Report Number: 21-08-002-01-070
U.S. Department of Labor                              April 2008
Office of Inspector General
Office of Audit
                                                      WHAT OIG FOUND
                                                      CLC internal controls over its activities and
BRIEFLY…                                              expenditures were not always followed or
                                                      sufficient. The CLC Secretariat:
Highlights of Report Number: 21-08-002-01-070,          • could not demonstrate that contracts and
Internal Controls Over Commission for Labor                vendor payments totaling about $1 million
Cooperation Secretariat Activities Need                    were used to support the CLC mission or
Strengthening, to the Secretary of Labor, dated
                                                           that it actually received the goods or
April 7, 2008.
                                                           services for which it paid;
                                                        • could not demonstrate that travel
WHY READ THE REPORT                                        expenditures of $9,930, hospitality and
The Commission for Labor Cooperation (CLC) is              representation expenditures totaling
a tri-national, not-for-profit organization created        $18,020, or employee relocation
under the North American Agreement on Labor                expenditures totaling $12,669, were
Cooperation. The CLC promotes cooperative                  appropriate uses of CLC funds; and
activities and research in the areas of labor           • did not regularly submit required financial
standards, labor law and human resource                    reports to the Ministerial Council, and
development. A Ministerial Council, consisting             reports that were submitted provided only
of the Minister of Labor from Canada and the               summary financial data that did not include
Secretaries of Labor from Mexico and the United            sufficient details for an adequate Ministerial
States, oversees the activities of the CLC.                Council review of Secretariat activities.
These activities are carried out by a 15-person
Secretariat. The CLC is funded through equal          We found that the CLC General Fund balance
contributions from the three participating            declined primarily as a result of assessment
countries.                                            credits granted to the funding countries.

WHY OIG CONDUCTED THE AUDIT                           WHAT OIG RECOMMENDED
The Executive Director of the CLC Secretariat         We recommended that the Secretary of Labor ask
resigned in October 2006 after an internal            the Ministerial Council to take ten specific
review identified issues relative to CLC              actions to improve internal controls at the CLC.
Secretariat leadership, staff practices, and the      Key actions we recommended include:
inappropriate use of funds. In response to the          • ensuring all procurement actions are
internal review and Congressional concerns that           adequately documented and approved;
followed, we conducted a performance audit of           • enforcing the existing requirements for
the CLC’s Secretariat’s expenditures to                   approving travel and designating
determine (1) whether CLC internal controls               responsibilities for approval of the Executive
were adequate to ensure that CLC Secretariat              Director’s travel;
activities and expenditures supported its mission       • revising policies and procedures for
and (2) what contributed to the decline in the            hospitality/representational activities and
CLC General Fund balance. Our audit covered               reimbursement of employee relocation
the period 2004 through 2006.                             expenses; and
                                                        • requiring the Secretariat to submit detailed
                                                          quarterly interim financial reports on a timely
READ THE FULL REPORT
                                                          basis.
To view the report, including the scope,
methodology, and full agency response, go to:         In response to our draft report, the Deputy
                                                      Under Secretary for International Affairs stated
http://www.oig.dol.gov/public/reports/oa/2008/21-     that she will work closely with her counterparts
08-002-01-070.pdf                                     in Canada and Mexico to undertake our
                                                      recommended actions.
                                                           U.S. Department of Labor – Office of Inspector General




Table of Contents

Executive Summary ...................................................................................................... 1

Assistant Inspector General’s Report ......................................................................... 5

         CLC Internal Controls Were Not Adequate to Ensure Secretariat
         Activities and Expenditures Supported the CLC Mission............................... 7

         CLC General Fund Balance Declined Primarily as a Result of
         Assessment Credits Granted to the Three Participating Countries, in
         Accordance with CLC Policy.. ......................................................................... 18


EXHIBITS

         Exhibit 1 – Contracts Awarded, CYs 2004-2006 ............................................ 23

         Exhibit 2 – Vendors Paid as Contractors, CYs 2004-2006............................. 25

         Exhibit 3 – Travel by CLC Executive Director Knouse, August 2004 –
         October 2006..................................................................................................... 27

         Exhibit 4 – CLC Secretariat Staffing. .............................................................. 29

         Exhibit 5 – CLC Contributions and Expenditures.......................................... 31


APPENDICES

         Appendix A - Background................................................................................ 35

         Appendix B - Objectives, Scope, Methodology, and Criteria........................ 37

         Appendix C - Acronyms and Abbreviations................................................... 41

         Appendix D - Response to Draft Report ......................................................... 43




                                                                                                      CLC Secretariat
                                                                                         Report No. 21-08-002-01-070
               U.S. Department of Labor – Office of Inspector General




THIS PAGE INTENTIONALLY LEFT BLANK




                                                     CLC Secretariat
                                        Report No. 21-08-002-01-070
                                          U.S. Department of Labor – Office of Inspector General




Executive Summary
The Commission for Labor Cooperation (CLC) is an international, not-for-profit
organization created in 1994 under the North American Agreement on Labor
Cooperation (NAALC). NAALC is a supplemental agreement to the North American
Free Trade Agreement (NAFTA). The CLC promotes cooperative activities and
research in the areas of labor standards, labor law and human resource development.
Financed through U.S. Department of Labor (DOL) appropriated funds and equal
contributions from the governments of Canada and Mexico, the CLC consists of a
Ministerial Council and an Office of the Secretariat (CLC Secretariat). The Ministerial
Council is composed of the Minister of Labor from Canada and the Secretaries of Labor
from Mexico and the United States. The CLC Secretariat has a staff of 15 employees
and assists the Ministerial Council in carrying out its functions.

The CLC works closely with the National Administrative Offices (NAOs) created by each
government within their own labor ministry to implement the NAALC. The NAOs
provide administrative/advisory support to both the CLC and the Ministerial Council. In
DOL, the Deputy Under Secretary for International Affairs serves as the U.S. Council
designee, and the Bureau of International Labor Affairs (ILAB), Office of Trade and
Labor Affairs (OTLA), functions as the National Administrative Office.

In August 2004, the Ministerial Council appointed Mark Knouse, a Pittsburgh-based
government affairs consultant whose spouse works in the Office of the Secretary at
DOL, to be the Executive Director of the CLC Secretariat. The Executive Director is the
principal officer in charge of all aspects of the CLC Secretariat and enjoys diplomatic
immunity. The duties of the Executive Director include appointing and supervising staff,
submitting for the approval of the Ministerial Council the annual plan of activities and
budget for the CLC, reporting to the Ministerial Council annually on the activities and
expenditures of the CLC Secretariat, and coordinating the preparation of studies
requested by the Ministerial Council. Mr. Knouse’s term ended with his resignation in
October 2006 after an internal review identified issues relative to CLC Secretariat
leadership, staff practices, and the inappropriate use of funds during his tenure as
Executive Director.

In response to the internal review and Congressional concerns that followed, we
conducted a performance audit of expenditures incurred by the CLC Secretariat during
Calendar Years (CYs) 2004 through 2006. We designed our audit procedures to
answer the following questions:

   1. Were CLC internal controls adequate to ensure that the CLC Secretariat
      activities and expenditures supported its mission?

   2. What contributed to the decline in the CLC General Fund balance?



                                           1                                    CLC Secretariat
                                                                   Report No. 21-08-002-01-070
                                            U.S. Department of Labor – Office of Inspector General



Results

CLC internal controls were not adequate to ensure that the CLC Secretariat activities
and expenditures supported the CLC mission. We found that CLC policies and
procedures governing its activities and expenditures were not always followed or
sufficient.

As a result of these internal control problems, the CLC Secretariat:

   •   could not demonstrate that contracts and vendor payments totaling
       approximately $1 million were used to support the CLC mission or that it actually
       received the goods or services for which it paid;

   •   could not demonstrate that travel expenditures of $9,930 incurred by Executive
       Director Mark Knouse and a CLC staff person supported the CLC mission;

   •   could not demonstrate whether hospitality and representation expenditures
       totaling $18,020, or relocation expenditures totaling $12,669 for employees to
       travel back and forth from their pre-employment homes, were appropriate uses of
       CLC funds;

   •   did not specify the minimum qualifications required for staff positions;
       consequently, we were unable to determine if the employees hired were qualified
       to carry out their responsibilities;

   •   did not provide documentation of specific duties assigned to contract research
       assistants and interns; consequently, we were unable to determine whether the
       research assistants and interns were used in a manner that supported the CLC
       mission; and

   •   did not regularly submit required quarterly financial reports to the Ministerial
       Council, and reports that were submitted provided only summary financial data
       that did not include sufficient details for an adequate Ministerial Council review of
       Secretariat activities.

The CLC General Fund balance declined from $1,987,691, as of January 1, 2004, to
$606,916, as of December 31, 2006, primarily as a result of assessment credits granted
to the funding countries, in accordance with CLC policy. CLC Secretariat spending
remained relatively level and nominally affected the General Fund balance. As noted
above, documentation was not always sufficient for us to determine whether CLC
Secretariat expenditures were an appropriate use of CLC funds.

The Office of Audit did not make any referrals related to questionable expenditures
discussed in this report to the OIG's investigative office, because Mr. Knouse, as the
Executive Director of the Secretariat, was entitled to diplomatic immunity from
prosecution, and the CLC did not respond to the OIG's request to waive this immunity.

                                             2                                    CLC Secretariat
                                                                     Report No. 21-08-002-01-070
                                           U.S. Department of Labor – Office of Inspector General



Recommendations

Given that DOL appropriated funds are used to support the mission of the CLC, we
recommend that the Secretary ask the Ministerial Council to take the following actions:

   1.     Develop and implement sufficient internal controls to ensure all procurement
          actions are adequately documented, reviewed and approved from award
          through contract execution and completion. This documentation should
          include copies of competing bids, or, if not competed, a copy of the rationale
          for not obtaining bids, and a copy of the executed contract and any contract
          modifications, as well as evidence of all deliverables received.

   2.     Enforce the existing requirement regarding the documentation to be
          submitted with travel voucher claims before approval for payment and
          designate responsibilities for approval of travel and related voucher claims
          made by the Executive Director.

   3.     Revise CLC Rules of Employment, Rule 26 to include guidelines on
          hospitality and representational activities that specify which expenditures are,
          and which expenditures are not, eligible for funding.

   4.     Evaluate and revise Accounting Policy 5.0 (Employee Relocation and Home
          Leave) to define ”special circumstances” to ensure relocation funds are used
          only for relocation purposes and not for purposes unrelated to relocation.

   5.     Amend Annex A of the CLC Employment Rules to require the Executive
          Director to prepare not only a job description for each vacant position, but to
          also specify the minimum qualifications needed to carry out the duties
          detailed in the job description.

   6.     Amend the CLC Temporary Research Assistant and Intern Policies to require
          the CLC Secretariat to maintain documentation supporting the qualifications
          of those contractors and the work they perform.

   7.     Enforce the existing requirement that the Secretariat Executive Director
          ensure that employees receive annual performance appraisals.

   8.     Enforce the existing requirement that the Secretariat Executive Director
          provide quarterly interim financial reports on a timely basis.

   9.     Require a detailed accounting of procurement, travel, hospitality/
          representation, and relocation activities and expenses in the interim financial
          reports.

   10.    Take a more proactive role in monitoring CLC Secretariat activities and
          expenditures.

                                            3                                    CLC Secretariat
                                                                    Report No. 21-08-002-01-070
                                          U.S. Department of Labor – Office of Inspector General




Agency Response

In response to the draft report, the Deputy Under Secretary for International Affairs
stated that ILAB fully concurs with the audit findings and corresponding
recommendations for improving the internal controls over the CLC Secretariat. She
further stated that ILAB will work closely with its counterparts in Canada and Mexico to
undertake the actions recommended in this report.

The Deputy Under Secretary cited a number of actions the CLC has taken to address
issues of Secretariat management, accountability, and oversight. These actions
included: authorizing an independent audit of the Secretariat’s internal controls
conducted as part of its 2006 financial statement audit; freezing the Secretariat’s
budgetary expenditures and staffing actions in September 2006 pending further
notification from the Council; appointing a new Director of Administration at the
Secretariat to focus on reviewing and improving financial and administrative controls;
and increasing the involvement of the Council Designees in addressing Secretariat
financial and administrative matters.

The Deputy Under Secretary also stated that the State Department oversees waiver of
immunity requests involving U.S. employees of international organizations, and ILAB
has referred the OIG’s waiver request to the U.S. State Department for its advice and
recommendations. The Deputy Under Secretary noted that the DOL Office of the
Solicitor had informed OIG of the referral and provided OIG with a contact at the State
Department in case OIG wanted to discuss the waiver request with the State
Department.

See Appendix D for ILAB’s complete response to our draft report.

OIG Conclusion

Based on the actions that the Bureau of International Labor Affairs states the CLC has
taken and plans to take, we consider the recommendations resolved.

The OIG contacted CLC on March 14, 2007, requesting a waiver of immunity for Mr.
Knouse, pursuant to the CLC's by-laws. Approximately four months later, after two
follow-up requests regarding the status of our waiver request, the DOL Office of the
Solicitor advised us that it had raised our request with the U.S. State Department. On
August 29, 2007, the Office of the Solicitor suggested that the OIG follow-up with the
State Department directly. The OIG's request was made directly to the CLC, and we do
not believe it is appropriate or necessary for the OIG to contact the State Department
directly regarding this issue.




                                            4                                   CLC Secretariat
                                                                   Report No. 21-08-002-01-070
                                          U.S. Department of Labor – Office of Inspector General



U.S. Department of Labor                        Office of Inspector General
                                                Washington, DC 20210


April 7, 2008

                        Assistant Inspector General’s Report


The Honorable Elaine L. Chao
Secretary of Labor
200 Constitution Avenue, NW
Washington, DC 20210

In response to recommendations made by an internal review and Congressional
concerns that followed, we conducted a performance audit of the Commission for Labor
Cooperation (CLC) Secretariat expenditures during CYs 2004 through 2006.

The CLC is an international organization established by Part Three of the North
American Agreement on Labor Cooperation (NAALC). The NAALC is a supplemental
agreement to the North American Free Trade Agreement (NAFTA) signed by the United
States, Mexico and Canada, which became effective on January 1, 1994. The
objectives of the NAALC are, among other things, to improve working conditions and
living standards, to promote a set of guiding labor principles, and to encourage
cooperation to promote innovation and rising levels of productivity and quality.

The CLC was established in 1994 and consists of the Ministerial Council and the CLC
Secretariat. The Ministerial Council, composed of the Minister of Labor from Canada
and the Secretaries of Labor from Mexico and the United States, oversees
implementation of the NAALC and supervises the activities of the CLC Secretariat. The
Ministerial Council promotes cooperative activities and research in the areas of labor
law, labor standards, labor relations, and labor markets.

The CLC Secretariat, located in Washington, DC, undertakes labor-related research
and assists the member countries with their cooperative activities. The CLC Secretariat
has a staff of 15 employees from the three participating countries and is headed by an
Executive Director. The Executive Director is chosen by the Ministerial Council for a 3-
year term that may be renewed for one additional 3-year term. The Executive Director
position is filled by individuals from each of the three member countries, on a rotating
basis.

In August 2004, when it became time to have a U.S. Executive Director, the Ministerial
Council appointed Mark Knouse, a Pittsburgh-based government affairs consultant and
the spouse of an employee in the Office of the Secretary at DOL. Mr. Knouse’s term
ended with his resignation in October 2006, after an internal review suggested that he
used CLC monies to fund lobbying activities on behalf of his Pittsburgh-based clients.


                                           5                                       CLC Secretariat
                                                                      Report No. 21-08-002-01-070
                                                     U.S. Department of Labor – Office of Inspector General


Specifically, on August 18, 2006, the Bureau of International Labor Affairs, Office of
Trade Agreement Implementation (OTAI) 1 completed an internal review that identified
issues relative to CLC Secretariat leadership, staff practices, and expenditures that
raised concerns and allegations of inappropriate use of funds during the tenure of
Executive Director Mark Knouse (August 2004 – October 2006). OTAI recommended
that the Ministerial Council authorize an independent audit of CLC Secretariat
expenditures.

On November 1, 2006, the Chairman of the House Committee on Education and Labor
sent a letter to the U.S. Secretary of Labor requesting more information about the
dealings that led to the resignation of the former Executive Director, Mark Knouse.
Congressional staffers later expressed concern that spending during Mr. Knouse’s
tenure had depleted the CLC General Fund.

In response to the internal review and the Congressional concerns that followed, the
OIG initiated a performance audit of CLC activities and expenditures for the period
January 1, 2004 through December 31, 2006. We designed our audit procedures to
answer the following questions:

    1. Were CLC internal controls adequate to ensure that the CLC Secretariat’s
       activities and expenditures supported its mission?

    2. What contributed to the decline in the CLC General Fund balance?

We concluded that CLC internal controls were not adequate to ensure that the CLC
Secretariat activities and expenditures supported the CLC mission. We found that CLC
policies and procedures governing its activities and expenditures were not always
followed or sufficient in the following areas: procurement, travel, hospitality/
representation, employee relocation, and staffing. The Office of Audit did not make any
referrals related to questionable expenditures discussed in this report to the OIG's
investigative office, because Mr. Knouse, as the Executive Director of the Secretariat,
was entitled to diplomatic immunity from prosecution, and the CLC did not respond to
the OIG's request to waive this immunity. We also found that the decline in the CLC
General Fund balance resulted primarily from contribution credits granted to the funding
countries, in accordance with CLC policy.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives. Our audit objectives, scope, methodology and criteria are detailed in
Appendix B.


1
 OTAI is now part of the Office of Trade and Labor Affairs (OTLA), which serves as the U.S. National
Administrative Office.

                                                       6                                     CLC Secretariat
                                                                                Report No. 21-08-002-01-070
                                             U.S. Department of Labor – Office of Inspector General



Results and Findings

Objective 1 – Were CLC internal controls adequate to ensure that the CLC
             Secretariat activities and expenditures supported its mission?

CLC internal controls were not adequate to ensure that the CLC Secretariat activities
and expenditures supported the CLC mission. We found that CLC policies and
procedures governing its activities and expenditures were not always followed or were
not sufficient in the following areas: procurement, travel, hospitality/representation,
employee relocation, and staffing. Therefore, more proactive Ministerial Council
oversight of CLC Secretariat activities is needed.

The Committee on Sponsoring Organizations of the Treadway Commission (COSO)
defines internal control as follows:

      Internal control is a process, effected by an entity’s board of directors,
      management and other personnel, designed to provide reasonable
      assurance regarding the achievement of objectives in the following
      categories:

          •   Effectiveness and efficiency of operations

          •   Reliability of financial reporting

          •   Compliance with applicable laws and regulations

CLC has recognized the value that strong internal controls bring to an organization.
The CLC Financial Rules, September 1, 2005, paragraph 8.1, states the following:

      The Executive Director shall establish procedures:

              (a)    to ensure effective and prudent financial
                     administration, including proper segregation of duties;
                     and

              (b)    to ensure that all transactions are adequately
                     supported by documentation and have received
                     proper authorization.




                                               7                                   CLC Secretariat
                                                                      Report No. 21-08-002-01-070
                                          U.S. Department of Labor – Office of Inspector General




Procurement

During CYs 2004 through 2006, the CLC Secretariat awarded 21 contracts and made
payments to 49 additional vendors, all totaling approximately $1 million. However, CLC
Secretariat officials were unable to provide supporting documentation to demonstrate
that the $1 million was used to support the CLC mission or that the CLC received the
goods or services for which it paid.

The table below summarizes services acquired by the CLC Secretariat during CYs 2004
through 2006:

     Calendar Year          Number of Contracts/Vendors            Total Dollars
         2004                           21                            $219,493
         2005                           29                             406,214
         2006                           20                             407,421
        TOTAL                           70                          $1,033,128

The CLC Financial Rules, paragraph 8.1(b), September 1, 2005, states “. . . the
Executive Director shall establish procedures to ensure that all transactions are
adequately supported by documentation and have received proper authorization.”

In response to our requests for all contracts awarded, CLC Secretariat officials provided
documentation that supported 21 contracts, primarily for the acquisition of research,
accounting, legal and consulting services. Our analysis of the contract documentation
found that the goods and services specified were appropriate uses of CLC funds.
However, CLC Secretariat officials were unable to provide other requested
documentation, such as invoices, contract modifications, or evidence of contract
deliverables. As a result, the CLC Secretariat could not demonstrate whether it
received the $528,522 in products and services for which it contracted in CYs 2004-
2006. (See Exhibit 1.) For example, in 2004, a contract for $35,000 was awarded to
produce a body of research on the subject of migrant law. The CLC Secretariat could
not provide documentation to show that the research work contracted for was ever
received.

In addition to the 21 contracts discussed above, our review of the general ledger
identified payments to an additional 49 vendors, totaling $511,198. (See Exhibit 2.)
According to the general ledger, the CLC Secretariat made payments for research,
accounting, computer, and legal services. CLC Secretariat officials were unable to
provide copies of the related contracts or any other documentation related to these
payments. Without such documentation, the CLC Secretariat could not demonstrate
whether the payments were for services that supported the CLC mission, or even
whether the services were actually received.

Additionally, the Secretariat could not demonstrate that competitive sources were
considered in 25 cases that required that competition be considered. This is because

                                             8                                  CLC Secretariat
                                                                   Report No. 21-08-002-01-070
                                              U.S. Department of Labor – Office of Inspector General


the CLC Secretariat did not adhere to established policies and procedures, nor did it
make provisions for the policies and procedures to apply to the Executive Director. CLC
Financial Policies and Procedures, May 1999, paragraph 2.1, Contracting Policy, states:

         The following guidelines for purchase contracts for goods or services with
         one vendor for amounts exceeding $12,000 should be considered prior to
         contracting for such goods and services. At least three bids from
         competing sources should be obtained in writing, or the requester should
         document the rationale why three competing bids were not possible or
         was not considered appropriate with such documented on purchase
         requisition with the competing bids attached. Appropriate approval should
         be obtained on the purchase requisition prior to executing any vendor
         contracts.

The CLC Secretariat made payments to 25 vendors for amounts exceeding $12,000
each, for a total of $822,587. The CLC Secretariat was unable to provide
documentation to demonstrate whether competing bids were obtained or a rationale
was prepared to explain why it was not possible or appropriate to obtain bids.
According to a CLC Secretariat official, during Mr. Knouse’s tenure, contracts were
awarded without competition. As a result of not adhering to established CLC policies
and procedures for maintaining adequate documentation, the CLC Secretariat could not
demonstrate for the 25 vendors that services were properly acquired or that the best
value was obtained.

Adequate and consistent oversight by Secretariat officials is essential to ensure that
procurement activities and expenditures are an appropriate use of CLC funds; that
established CLC policies and procedures are followed; and that required documentation
is maintained.

Travel

During Mark Knouse’s tenure as Executive Director, he and CLC Secretariat staff
traveled 49 times, incurring travel expenses of $56,176. For 18 of these trips,
Mr. Knouse and CLC Secretariat staff did not follow established procedures for
documenting travel activities:

   •     For 17 trips totaling $8,703, Mr. Knouse did not include travel activity reports or
         identify trip purpose, key contacts, and trip results. (see Exhibit 3). Fifteen of
         these trips involved travel to his home state of Pennsylvania

   •     For one trip to New York totaling $1,227, a CLC Secretariat staff member did not
         include an agenda or trip results.

CLC Financial Policies & Procedures, Accounting Policy 4.0 - Business Travel, May
1999, states:


                                               9                                    CLC Secretariat
                                                                       Report No. 21-08-002-01-070
                                           U.S. Department of Labor – Office of Inspector General


      The business travel directive of the Commission is a directive intended to
      provide fair, reasonable, and efficient reimbursement of expenses incurred
      in carrying out the Commission's business with a minimum of
      administrative burden and cost. . . . and it is expected that the staff will
      exercise common sense and discretion equally in incurring expenses on
      behalf of the organization.
CLC Financial Policies & Procedures, Accounting Policy 4.0.1 - Travel Costs, May
1999, states:

        All travel must be authorized in advance by the Executive Director.
        Advance Requests and Travel Voucher reimbursements are the
        responsibility of each employee, and approved by the Executive
        Director….

CLC Financial Policies & Procedures, Accounting Policy 4.0.7 – Travel Reports, May
1999, states:

        Within 5 working days of return from business travel, every employee shall
        submit to the Executive Director a Travel Activity Report, together with a
        copy of his/her Travel Expense Claim Report. The Travel Activity Report
        should cover the following topics: (a) destination, date of departure and
        date of return; (b) purpose of travel; (c) key contacts [individuals/
        organizations]; (d) results; and (e) follow-up action required [if any].

For the 18 trips totaling $9,930 described above, Mr. Knouse and a CLC staff member
were reimbursed for travel costs even though they had not submitted the required
documentation. Without documentation of the purpose of the travel, we could not
determine whether the travel expenditures supported the CLC mission. Further, CLC’s
policy and procedures for business travel did not require prior approval of Mr. Knouse’s
travel, nor did the policy identify who was responsible for approving the reimbursement
of travel expenses incurred by Mr. Knouse.

Hospitality and Representation

During CYs 2004-2006, the CLC Secretariat incurred 228 hospitality and representation
expenditures totaling $18,020 that were insufficiently documented. The documentation
maintained by the CLC Secretariat did not adequately describe the purpose of the
hospitality/representation activity.

                        Category                             # of Expenditures        Amount
Mark Knouse and Non-CLC participant                                   154                $9,302
Mark Knouse, CLC staff, and Non-CLC Participant                       26                  3,479
CLC Staff and Non-CLC Participant                                      17                 1,562
CLC Staff Only                                                         31                 3,677
Total                                                                228               $18,020



                                            10                                   CLC Secretariat
                                                                    Report No. 21-08-002-01-070
                                            U.S. Department of Labor – Office of Inspector General


These expenditures primarily involved reimbursing Mr. Knouse for lunches and dinners
with members and staff of the United States Congress and the Pennsylvania General
Assembly.

CLC policy governing hospitality and representation expenditures does not provide
sufficient guidelines for the types of eligible hospitality events or activities and
prescribed funding limitations. As a result of the insufficient documentation, we were
unable to determine if these expenditures were an appropriate use of CLC funds.

Rule 26, Hospitality and Representation, of the Commission for Labor Cooperation
Rules of Employment, amended September 1, 2005, requires:

       The Executive Director may engage in hospitality and representational
       activities and may authorize staff to engage in such activities within
       prescribed limitations.

Rule 26 also states:

       The employees shall promptly submit fully documented claims for
       expenses incurred in the course of such activities.

While Rule 26 allows the expenditure of CLC funds for hospitality and representation
activities, it does not define what is an eligible activity or the limitations that should be
placed on these activities. Further, the rule does not describe what documentation
should be submitted to support expenses incurred. This unclear policy guidance
increased the risk that CLC Secretariat employees incurred hospitality or representation
expenses that did not support the CLC mission.

Employee Relocation

During CYs 2004-2006, Mr. Knouse authorized, through employment agreements, three
employees to use unspent relocation funds to return repeatedly to their pre-employment
residences (Canada and Pennsylvania) at CLC expense. CLC policy for employee
relocation is unclear as to whether the expenses related to this travel should have been
authorized.

The CLC Rules of Employment, Rule 17, amended September 1, 2005, states:

       The Executive Director and professional staff recruited from beyond the
       Washington metropolitan area shall be reimbursed for expenses incurred
       as a direct consequence of their relocation to the Washington metropolitan
       area at the time of appointment, as well as for those incurred at the time of
       separation from service to return home. Such reimbursements will be up
       to the limit established by and in accordance with the terms of the
       Relocation Policy.



                                             11                                   CLC Secretariat
                                                                     Report No. 21-08-002-01-070
                                                         U.S. Department of Labor – Office of Inspector General


In addition, Financial Policies and Procedures, Accounting Policy 5.0 - Employee
Relocation and Home Leave, May 1999, states:

           Special circumstances requiring special consideration for matters not
           covered under this policy may be decided from time to time by the
           Executive Director, but never so as to exceed the total allowable amount
           from either relocation. The total allowable combined amount for all
           payments for relocation costs itemized below shall be $25,000 for each
           relocation.

The three employment agreements entered into by Mr. Knouse included the following:

       •   Two employment agreements authorized the Director for Administration, as well
           as the Publications Coordinator, to draw down half of the remaining portion of
           relocation funds ($12,500), after all eligible expenses were satisfied, to travel
           from Washington, DC to their current residences 2 (Canada and Pennsylvania,
           respectively) and return.

       •   The third employment agreement authorized a Researcher to draw down up to
           $6,000 for one roundtrip per month from Washington, DC to the employee’s
           current residence (Canada) for the duration of employment.

CLC policy allows the Executive Director of the CLC Secretariat the latitude to consider
special circumstances when authorizing relocation expenses. The travel that Mr.
Knouse authorized represented additional employee compensation rather than
reimbursement of relocation expenses. The CLC Secretariat had a policy in place that
addressed its responsibility to provide professional staff the opportunity to return home
periodically. Under CLC’s home leave policy, employee home leave was available to
the Executive Director and professional staff once for every two-year period of
appointment, provided that more than one year of the respective period had been
served. Transportation expenses related to the home leave were authorized for the
Executive Director, professional staff, and their spouses and dependents. Additionally,
two days of paid leave were available for travel time. The additional travel that Mr.
Knouse authorized in the three employment agreements did not fall under the category
of home leave.

Due to the insufficient relocation policy and procedures, CLC could not effectively
ensure that relocation expenditures were appropriate and consistent with its mission.
Specifically, we could not determine if the $12,669 that the three employees used to
travel to and from their pre-employment homes was a necessary and reasonable
expense.




2
    Current residence refers to where they lived before locating to Washington, DC.

                                                          12                                       CLC Secretariat
                                                                                      Report No. 21-08-002-01-070
                                           U.S. Department of Labor – Office of Inspector General



Staffing

During CYs 2004-2006, the Executive Director Knouse complied with CLC policy when
hiring staff to fill vacant positions. However, because CLC policy did not specify the
minimum qualifications required for the positions, we were unable to determine if the
employees hired were qualified to carry out their responsibilities. We also found that
annual employee performance appraisals had not been prepared, as required by CLC
policy.

The NAALC Articles 12.2 and 12.3 state the following:

      12.2. The Executive Director shall appoint and supervise the staff of the
      Secretariat, regulate their powers and duties and fix their remuneration in
      accordance with general standards to be established by the Council.

      12.3 The number of staff positions shall initially be set at 15 and may be changed
      thereafter by the Council.

In 2004, the CLC Secretariat consisted of the following 15 authorized positions:
Executive Director, Director of Administration, Director of Research, Publications
Coordinator, Labor/Employment Advisor, Financial Officer, Information Management
Coordinator, Employment Relations, Labor Economist (two positions), Research Editor,
Executive Assistant, Administrative Assistant (two positions), and Receptionist. See
Exhibit 5 for further details.

When Mr. Knouse was appointed as Executive Director of the CLC Secretariat in
August 2004, 5 of the 15 CLC Secretariat positions were vacant. Mr. Knouse filled
three of the vacant positions (Director for Administration, Publications Coordinator, and
Administrative Assistant) by the end of 2004. The Director of Research and the
Research Editor positions were filled in 2005.

The CLC Rules of Employment, Amended September 1, 2005, Rule 14, states:

      Subject to Rule 15, the Executive Director shall appoint and supervise the
      staff and regulate their powers and duties in accordance with the following
      general standards:

             (a) staff shall be appointed and retained, and their conditions
                 of employment shall be determined strictly on the basis of
                 efficiency, competence and integrity . . .

             (f) any further general standards for the selection of staff as
                 may be established by the Council, as included in
                 Annex A.




                                            13                                   CLC Secretariat
                                                                    Report No. 21-08-002-01-070
                                          U.S. Department of Labor – Office of Inspector General


Annex A of the CLC Rules of Employment states, in part, that the Executive Director will
prepare a job description for each vacant position, determine the salary range and
establish a deadline for applications that provides the Parties with sufficient time to
propose candidates. However, Annex A does not require the Executive Director to
establish the minimum qualifications needed to carry out the duties detailed in the job
description.

CLC Rule 15, Council Oversight of Staff Appointments, states:

      The Executive Director shall inform the Council of all appointments
      3 weeks prior to making a formal offer of employment. The Council may,
      within 3 weeks of receiving notification from the Executive Director,
      decide, by a two-thirds vote, to reject any appointment that does not meet
      the general standards set out in Rule 14.

Mr. Knouse complied with the CLC Rules of Employment when hiring CLC staff to fill
the vacancies for Director for Administration, Director for Research, Publications
Coordinator, and Research Editor. CLC Secretariat officials were unable to provide the
resume of the Administrative Assistant hired in September 2004. The CLC Rules of
Employment did not require the Executive Director to identify the minimum qualifications
required for any of these positions. Consequently, we could not determine whether the
employees Mr. Knouse hired were qualified to perform the duties of their respective
positions. However, our review of the employees’ resumes showed they had relevant
work experience for their respective positions.

We also found that, during Mr. Knouse’s tenure as Executive Director of the CLC
Secretariat, employee performance appraisals were not prepared, as required.

Rule 24, Rules of Employment, of the Commission for Labor Cooperation, amended
September 1, 2005, states:

      The Executive Director is responsible for ensuring that staff receive annual
      performance appraisals.

Annual appraisals serve to document and provide a permanent record of employee
performance by highlighting specific accomplishments during a specified period. We
could not determine why Mr. Knouse did not comply with CLC policy and ensure that
staff received annual performance appraisals. Nevertheless, without employee
performance appraisals, we could not identify specific staff accomplishments and
determine whether employee performance activities supported the CLC mission.

In addition to its own staff, the CLC Secretariat also used contractors as research
assistants and interns. These contractors primarily assisted with the development and
completion of CLC research projects. The CLC Secretariat used three research
assistants and interns in 2004, three in 2005, and two in 2006. CLC Secretariat officials
provided documentation of qualifications for just two of the research assistants. Our

                                           14                                   CLC Secretariat
                                                                   Report No. 21-08-002-01-070
                                            U.S. Department of Labor – Office of Inspector General


review of the two resumes showed that the contractors had relevant educational
background and language skills for their positions.

CLC Secretariat officials did not provide any documentation of specific duties assigned
to the research assistants and interns. As a result, we were unable to determine
whether the research assistants and interns were used in a manner that supported the
CLC mission.

Ministerial Council Oversight

The CLC is formed of a Council of Ministers (the Ministerial Council), a cabinet-level
body in charge of policy setting and decision making, consisting of the labor minister
from Canada and the labor secretaries from Mexico and the United States, and a tri-
national Secretariat that provides support to the Ministerial Council and to the
independent Evaluation Committees of Experts and Arbitral Panels the Ministerial
Council may establish. The CLC works closely with the National Administrative Offices
(NAOs) created by each government within their own labor ministry to implement the
NAALC. The NAOs provide administrative/advisory support to both the CLC and the
Ministerial Council. In the US Department of Labor (DOL), the Bureau of International
Labor Affairs (ILAB), Office of Trade and Labor Affairs (OTLA), functions as the National
Administrative Office.

Rule 5.6, CLC Financial Rules, amended September 1, 2005, states:

       The Executive Director shall provide to the Ministerial Council, on a
       quarterly basis, interim financial reports including financial statements and
       an analysis of budgetary variances during the preceding quarter. The
       Executive Director shall also include a report on progress in addressing all
       internal control weaknesses or other significant observations, if any, made
       by the external auditors in their report for the previous year. If a significant
       budgetary variance arises, the Executive Director shall provide an
       explanation of this variance and shall propose a reallocation of funds for
       approval by the Ministerial Council if a reallocation is deemed necessary.
       The reallocation shall be disclosed in an explanatory note attached to the
       quarterly financial reports.

During CYs 2004-2006, the quarterly interim financial reports that Executive Director
Knouse submitted to the Ministerial Council provided only summary financial data and,
therefore, did not provide sufficient details for adequate Ministerial Council review of
CLC Secretariat activities. Further, the quarterly reports were not provided for the last 2
quarters of 2004 and 2005.

The interim financial reports provided to the Ministerial Council did not include progress
in addressing internal control weaknesses and other significant external auditor
observations. The weaknesses identified by the external auditors included the lack of a
formal process to review journal entries made to CLC accounts and the need for a

                                             15                                   CLC Secretariat
                                                                     Report No. 21-08-002-01-070
                                          U.S. Department of Labor – Office of Inspector General


formal policy for recording items discussed during formal annual meetings of the
Ministerial Council and Council Designees.

Adequate and consistent Ministerial Council oversight is an essential control for
ensuring that CLC Secretariat activities and expenditures support the CLC mission and
comply with established policies and procedures. The CLC Secretariat interim financial
report is the primary mechanism for communicating CLC financial and budgetary
information to the Ministerial Council. Accurate, complete and timely submitted interim
financial reports may have alerted Council members to the previously cited problems
with procurement, travel, hospitality/representation and relocation expenditures.

Recommendations

Given that DOL appropriated funds are used to support the mission of the CLC, we
recommend that the Secretary of Labor ask the Ministerial Council to take the following
actions to improve internal controls at the CLC:

   1. Develop and implement sufficient internal controls to ensure all procurement
      actions are adequately documented, reviewed and approved from award through
      contract execution and completion. This documentation should include copies of
      competing bids, or, if not competed, a copy of the rationale for not obtaining bids,
      and a copy of the executed contract and any contract modifications, as well as all
      deliverables received.

   2. Enforce the existing requirement regarding documentation to be submitted with
      travel voucher claims before approval for payment and designate responsibilities
      for approval of travel and related voucher claims made by the Executive Director.

   3. Revise CLC Rules of Employment, Rule 26 to include guidelines on hospitality
      and representation activities that specify which expenditures are, and which
      expenditures are not, eligible for funding.

   4. Evaluate and revise Accounting Policy 5.0 (Employee Relocation and Home
      Leave) to define ”special circumstances” to ensure relocation funds are used only
      for relocation purposes and not for purposes unrelated to relocation.

   5. Amend Annex A of the CLC Employment Rules to require the Executive Director
      to prepare not only a job description for each vacant position, but to also specify
      the minimum qualifications needed to carry out the duties detailed in the job
      description.

   6. Amend the CLC Temporary Research Assistant and Intern Policies to require the
      CLC Secretariat to maintain documentation supporting the qualifications of those
      contractors and the work they perform.




                                           16                                   CLC Secretariat
                                                                   Report No. 21-08-002-01-070
                                           U.S. Department of Labor – Office of Inspector General


   7. Enforce the existing requirement that the Secretariat Executive Director ensure
      that employees receive annual performance appraisals.

   8. Enforce the existing requirement that the Secretariat Executive Director provide
      quarterly interim financial reports on a timely basis.

   9. Require a detailed accounting of procurement, travel, hospitality/representation
      and relocation activities and expenses in the interim financial reports.

   10. Take a more proactive role in monitoring CLC Secretariat activities and
       expenditures.

Agency Response

In response to the draft report, the Deputy Under Secretary for International Affairs
stated that ILAB fully concurs with the audit findings and corresponding
recommendations for improving the internal controls over the CLC Secretariat. She
further stated that ILAB will work closely with its counterparts in Canada and Mexico to
undertake the actions recommended in this report.

The Deputy Under Secretary also cited a number of actions the CLC has taken to
address issues of Secretariat management, accountability, and oversight. These
actions included: authorizing an independent audit of the Secretariat’s internal controls
conducted as part of its 2006 financial statement audit; freezing the Secretariat’s
budgetary expenditures and staffing actions in September 2006 pending further
notification from the Council; appointing a new Director of Administration at the
Secretariat to focus on reviewing and improving financial and administrative controls;
and increasing the involvement of the Council Designees in addressing Secretariat
financial and administrative matters.

The Deputy Under Secretary also stated that the State Department oversees waiver of
immunity requests involving U.S. employees of international organizations, and ILAB
has referred the OIG’s waiver request to the U.S. State Department for its advice and
recommendations. The Deputy Under Secretary noted that the DOL Office of the
Solicitor had informed OIG of the referral and provided OIG with a contact at the State
Department in case OIG wanted to discuss the waiver request with the State
Department.

See Appendix D for ILAB’s complete response to our draft report.

OIG Conclusion

Based on the actions that the Bureau of International Labor Affairs states the CLC has
taken and plans to take, we consider the recommendations resolved.



                                            17                                   CLC Secretariat
                                                                    Report No. 21-08-002-01-070
                                                       U.S. Department of Labor – Office of Inspector General


The OIG contacted CLC on March 14, 2007, requesting a waiver of immunity for
Mr. Knouse, pursuant to the CLC's by-laws. Approximately four months later, after two
follow-up requests regarding the status of our waiver request, the DOL Office of the
Solicitor advised us that it had raised our request with the U.S. State Department. On
August 29, 2007, the Office of the Solicitor suggested that the OIG follow-up with the
State Department directly. The OIG's request was made directly to the CLC, and we do
not believe it is appropriate or necessary for the OIG to contact the State Department
directly regarding this issue.


Objective 2 - What contributed to the decline in the CLC General Fund balance?

The CLC General Fund balance declined from $1,987,691 as of January 1, 2004, to
$606,916 as of December 31, 2006. The decline was primarily due to assessment
credits granted to the funding countries, in accordance with CLC policy. CLC Executive
Secretariat spending remained relatively level and nominally affected the General Fund
balance.

The CLC is funded by equal contributions from Canada, Mexico and the United States. 3
If the Commission has an excess surplus of funds available at the end of 2 consecutive
years, the CLC Financial Rules, Rule 6.7, allows the Council to reduce the next year’s
contribution. An excess surplus is that portion of the year-end balance remaining in the
General Fund that exceeds 10 percent of the Parties’ annual contributions.

Although the CLC General Fund balance had declined during the 2004 through 2006
period, the CLC continued to maintain an excess surplus in its General Fund, as shown
below:

        General Fund Balance, as of 12/31/2006:                                 $606,916
        Less: 10 percent of Parties’ 2006 assessment:                           <210,000>
        Excess Surplus, as of 12/31/2006:                                       $396,916

CLC Financial Rules, Rule 6.7 states:

        Where the Commission has an excess surplus at the end of 2 consecutive
        financial years, the Council shall credit 50 percent of the excess surplus
        toward the assessed contributions of the Parties for the subsequent
        financial year in the same proportion as that in which the assessed
        contributions were received. Should this occur, the Executive Director
        shall adjust assessed contributions for the subsequent financial year to
        reflect such credit. For the remaining 50 percent of the excess surplus,
        the Executive Director shall present to the Council a plan to utilize such
        funds to further the work of the Commission. If no agreement is reached
3
 CLC Financial Rules, Rule 6.1 states: Each party shall contribute an equal share of the annual budget of the
Commission, subject to the availability of appropriated funds in accordance with the Party’s legal procedures. No
Party shall be obligated to pay more than any other Party in respect of an annual budget.

                                                        18                                      CLC Secretariat
                                                                                   Report No. 21-08-002-01-070
                                          U.S. Department of Labor – Office of Inspector General


      regarding the plans presented by the Executive Director to utilize such
      funds, the Council shall also credit that portion of the excess surplus
      toward the assessed contributions of the Parties for the subsequent
      financial year in the same proportion as that in which the assessed
      contributions were received. An excess surplus is that portion of the year-
      end balance remaining in the General Fund that exceeds 10 percent of the
      assessed contributions made by the Parties in a financial year.

The general fund balance had an excess surplus at the end of 2003; consequently, the
three funding countries received a combined credit of $450,000 ($150,000 each) that
was applied to their 2004 assessment. Similarly, in 2006, the three funding countries
received a combined credit of $516,336 ($172,112 each). The CLC General Fund
balance declined from $1,987,691, as of January 1, 2004, to $606,916. as of December
31, 2006. The $1,380,775 decline resulted primarily from the $966,336 in assessment
credits granted to the three funding countries, in accordance with CLC policy.

CLC spending remained relatively level during Calendar Years 2003, 2004, 2005 and
2006. The CLC spent $2.1 million in 2003, $2.4 million in 2004, $2.1 million in 2005,
and $2.2 million in 2006. In 2004, the Secretariat hired employees to fill vacant
positions, as well as relocated employees leaving the Secretariat. This caused an
increase in salaries and benefits as well as relocation expenses. Also, travel expenses
increased in 2004 as a result of conferences the CLC hosted in Cancun, Mexico and
Washington, DC. The increased spending in 2006 resulted primarily from increases in
accounting and legal services costs.

As stated elsewhere in this report, documentation of CLC Secretariat expenditures was
not sufficient for us to determine whether the increased expenditures supported the
CLC mission.

See Exhibit 5 for a detailed breakdown of country contributions, expenditures, and
beginning and ending General Fund balances.




Elliot P. Lewis




                                          19                                    CLC Secretariat
                                                                   Report No. 21-08-002-01-070
               U.S. Department of Labor – Office of Inspector General




THIS PAGE INTENTIONALLY LEFT BLANK




                20                                   CLC Secretariat
                                        Report No. 21-08-002-01-070
           U.S. Department of Labor – Office of Inspector General




Exhibits




            21                                   CLC Secretariat
                                    Report No. 21-08-002-01-070
               U.S. Department of Labor – Office of Inspector General




THIS PAGE INTENTIONALLY LEFT BLANK




                22                                   CLC Secretariat
                                        Report No. 21-08-002-01-070
                                                                 U.S. Department of Labor – Office of Inspector General



                              Exhibit 1: Contracts Awarded, CYs 2004-2006
                                            Evidence
                                          Provided that
                                                                         Type of
                                            Required
                           Contract                        Date          Contract
               Vendor                      Competing                                        Summary of Contracted Services
                           Amount                         Awarded         (from
                                           Bids Were
                                                                         General
                                           Obtained?
                                                                         Ledger)
1        B. Goldstein       $35,000            No         10/13/2004     Research     Research on migrant law.
                                                                                      Strategic research/communications plan for
2        AKOYA              $35,000            No         10/26/2004     Research
                                                                                      execution of project initiatives.
                                                                                      Research on occupational illnesses, injuries,
         R. Rabinowitz      $35,000            No         11/18/2004     Research
                                                                                      health & workers’ compensation law.
3
                                                            Subject to                Monthly financial reports, maintenance of bank
                                                           renewal on    Accounting
                                      4                                               accounts, accounts receivable and payable,
4        DJ Wachter Inc.    $35,772            No         June 1 each     & Audit
                                                            year from                 payroll records, & assistance in services required
                                                                          Services
                                                            5/9/2003                  of the Financial Officer.
                                                                                      Develop network of academic & think tank
                                                                                      resources that can be tapped to help shape CLC
                                                                                      research agenda, partner with CLC in research
5        L. Pettit          $11,900            NR         11/10/2004     Research     projects, contract with CLC for research, share
                                                                                      data bases with CLC, and serve in advisory
                                                                                      capacity with respect to staff selection &
                                                                                      development.
6        J. Watts             $7,500           NR         7/14/2004      Research     Cross-border labor mobility in North America (NA)
                                                                                      Canadian law as it pertains to workplace
7        D. Greschner       $15,000            No         2/27/2005      Research
                                                                                      discrimination and equal pay.
                                               No                                     Development & completion of defined research
8        D. Boncheva        $39,000                        6/6/2005      Research
                                                                                      projects & related matters.
                                               No                                     Occupational Safety and Health Working Group &
9        S. Ronaghan        $17,400                       10/5/2005      Research
                                                                                      related matters.
                                               No                                     Edit research papers & other relevant documents
10       S. Otteman         $17,400                       10/18/2005     Research
                                                                                      of the Secretariat.
                                               No                                     Support in translation, design & publication,
11       A. Roberts         $30,000                       6/15/2005      Research
                                                                                      publication distribution, & general services.
                                               No                        Accounting
                                      5
12       DJ Wachter Inc.    $60,991                          2005         Auditing    Continued from prior year.
                                                                          Services
                                               No                                     Development & completion of defined research
13       O. Elmkies         $39,000                        6/1/2005      Research
                                                                                      projects & related matters.
                                               NR          2/4/2005
14       B. Escobar         $12,000                                      Research     Employment Discrimination & Equal Pay laws.
15       B. Escobar         $12,000            NR          5/4/2005      Research     Extended from prior contract.
16       R. Ruttenberg       $7,000            NR         6/16/2005      Research     Occupational Safety & Health in NA.
17       P. Kurzcyn          $1,000            NR         3/29/2005      Research     No information available.
                                               NR                                     Review US Chapter of Volume II of the Labor
18       E. Spieler           $1000                       3/14/2005      Research
                                                                                      Law Guide Series
                                                                                      Labor markets as they pertain to NA
19       R. Hinojosa        $20,000                       5/12/2006      Research
                                               No                                     competitiveness & labor market independence.
                                                                         Accounting
                                      6                                      &        General accounting services, including advice &
20       J. Goldin          $86,559            No         1/23/2006
                                                                          Auditing    guidance on employment & financial rules.
                                                                          Services
21       A. Roberts         $10,000            NR         4/28/2006      Consultant   Extended from prior contract.
         Total 2004-2006   $528,522

     NR = Competition Not Required


     4
       Amount determined based on review of General Ledger. Contract dictated a daily rate of $675 and $75 per hour if
     day exceeded 8 hours.
     5
       Amount determined based on review of General Ledger. Contract dictated a daily rate of $750 and $93.75 per
     hour if day exceeded 8 hours.
     6
       Amount determined based on review of General Ledger. Contract dictated an hourly rate of $70 in January 2006,
     and was increased to $75 in November 2006.

                                                                  23                                        CLC Secretariat
                                                                                               Report No. 21-08-002-01-070
               U.S. Department of Labor – Office of Inspector General




THIS PAGE INTENTIONALLY LEFT BLANK




                24                                   CLC Secretariat
                                        Report No. 21-08-002-01-070
                                                          U.S. Department of Labor – Office of Inspector General



                                                 Exhibit 2
                                Vendors Paid as Contractors, CYs 2004-2006

                                                    Evidence Provided
     Vendor                            Payments       that Required     Year      Type of Product/Service based on
                                       Total         Competing Bids     Awarded   General Ledger Entry
                                                     Were Obtained?

1    C. Viveros-Cano                   $21,233.34   No                  2004      Research Assistant
2    M. Von Bulow                      $940.00      Not Required        2004      Research Contractor
3    C. Sheppard                       $750.00      Not Required        2004      Research Contractor
4    Rodriquez O'Donell Ross           $4,859.00    Not Required        2004      Legal Services
5    KPMG                              $9,900.00    Not Required        2004      Accounting and Audit Services
6    Klett Rooney Lieber & Schorling   $4,500.00    Not Required        2004      Legal Services
7    GlobalScope Internet Services     $1,607.50    Not Required        2004      Internet Services
8    Cable and Wireless USA            $2,550.00    Not Required        2004      Internet Services
9    SAVVIS, Inc                       $7,790.25    Not Required        2004      Internet Services
10   Micro-Serve Corporation           $10,487.34   Not Required        2004      Computer & Other Services
11   A. Rapaport                       $1,487.50    Not Required        2004      Research Assistant
12   R. Mendoza                        $875.00      Not Required        2004      Research Assistant
13   D. Miller                         $1,100.00    Not Required        2004      Research Assistant
14   I. Salehyan                       $1,250.00    Not Required        2004      Research Assistant
15   A. Figuero Diseno                 $1,334.20    Not Required        2004      Internet Services
16   KPMG                              $63,803.00   No                  2005      Accounting and Auditing Services
17   M. Douglas                        $17,635.80   No                  2005      Research Contractor
18   Micro-Serve Corporation           $14,580.00   No                  2005      Computer and other services
19   E. Omeda                          $10,000.00   Not Required        2005      Research Assistant
20   N. Caulfield                      $6,000.00    Not Required        2005      Research Contractor
21   F. Zapata                         $3,000.00    Not Required        2005      Research Contractor
22   Rodriquez O'Donell Ross           $7,702.50    Not Required        2005      Legal Fees
23   Barg & Henson                     $860.00      Not Required        2005      Accounting and Auditing Services
24   Gelman, Rosenberg                 $6,860.86    Not Required        2005      Accounting and Auditing Services
25   M. Robedo                         $1,400.00    Not Required        2005      Accounting and Auditing Services
26   GlobalScope Internet Services     $9,397.50    Not Required        2005      Internet Services
27   SAVVIS, Inc                       $8,925.00    Not Required        2005      Internet Services
28   Watson Wyatt& Co.                 $498.29      Not Required        2005      Research Contractor
29   University of California          $6,000.00    Not Required        2005      Research Contractor
30   C. Viveros-Cano                   $200.00      Not Required        2005      Intern
31   BatesNeimand Inc                  $8,600.00    Not Required        2005      Computer and other services
32   US Internet                       $540.00      Not Required        2005      Computer and other services
33   KPMG                              $62,000.00   No                  2006      Accounting and Auditing Services
34   Rodriquez O' Donell Ross          $74,388.00   No                  2006      Legal Services
35   Micro-Serve Corporation           $13,468.00   No                  2006      Computer and Other Services
36   Belmonster LLC                    $13,902.00   No                  2006      Computer and Other Services
37   M. Douglas                        $18,278.40   No                  2006      Consultant
38   L. Acin                           $26,243.00   No                  2006      Consultant
39   ARKTX                             $16,932.00   No                  2006      Consultant
40   University of California          $14,000.00   No                  2006      Research Contractor
41   F. Zapata                         $7,000.00    Not Required        2006      Research Contractor


                                                           25                                   CLC Secretariat
                                                                                   Report No. 21-08-002-01-070
                                                        U.S. Department of Labor – Office of Inspector General



                                                  Evidence Provided
     Vendor                          Payments       that Required     Year      Type of Product/Service based on
                                     Total         Competing Bids     Awarded   General Ledger Entry
                                                   Were Obtained?

42   M. Robedo                       $250.00      Not Required        2006      Accounting and Auditing Services
43   GlobalScope Internet Services   $9,252.50    Not Required        2006      Internet Services
44   ITECK Solutions                 $10,650.00   Not Required        2006      Consultant
45   M. Kurtzrock                    $4,550.00    Not Required        2006      Research Assistant
46   Gelman, Rosenberg               $515.00      Not Required        2006      Accounting and Auditing Services
47   IMB Accounting Services         $750.00      Not Required        2006      Accounting and Auditing Services
48   Ana Marketing and Mgmt          $1,650.00    Not Required        2006      Internet Services
49   US Internet                     $702.00      Not Required        2006      Internet Services
     TOTAL 2004 - 06                 $511,198




                                                         26                                   CLC Secretariat
                                                                                 Report No. 21-08-002-01-070
                                                 U.S. Department of Labor – Office of Inspector General



                                              Exhibit 3

      Travel by CLC Executive Director Knouse, August 2004 – October 2006

 Purpose of Travel             Location       Start Date    End Date     Days      Total Cost
Interview at NYU for Dev
of Research Network         New York NY        12/9/2004    12/11/2004     3           $1,380.72
Inauguration of
Secretary of State          Austin, TX         3/11/2005     3/12/2005     3           $1,779.69
Meeting with State
representatives             Harrisburg, PA     4/11/2005     4/12/2005     2            $400.08
Meeting with Governor       Harrisburg, PA      5/4/2005      5/4/2005     1            $174.47
Meeting with Lt.
Governor et al              Harrisburg, PA     5/11/2005     5/11/2005     1            $174.47
Meetings with State
representatives             Harrisburg, PA     5/27/2005     5/27/2005     1            $174.47
Meeting with State
representatives             Harrisburg, PA      6/6/2005      6/6/2005     1.5          $211.97
Meeting with State
representative              Harrisburg, PA     6/20/2005     6/21/2005     2            $477.13
Meet with VP of
Ergonomic & Safety
Services Inc.               New Stanton, PA    7/15/2005     7/15/2005     1            $246.57
Meet with University of
Pittsburgh Chancellor &
Carnegie Mellon
President                   Pittsburgh, PA    11/29/2005    11/29/2005     1            $175.00
Meetings at University of
Pennsylvania and
Carnegie Mellon             Pittsburgh, PA    12/13/2005    12/14/2005     2            $517.14
Meeting with State
representative              Harrisburg, PA     1/24/2006     1/24/2006     1            $174.47
Attend/give testimony at
Labor & Education
Committee Hiring            Harrisburg, PA      4/3/2006      4/4/2006     1.5          $421.72
Testimony before Labor
Relations Committee,
PA House of
Representatives             Harrisburg, PA     4/18/2006     4/19/2006     2            $448.48
Attend hearings State
Senate of Labor and
Industry Committee          Harrisburg, PA     6/27/2006     6/28/2006     2            $439.25
Meet with Carnegie
Mellon and Pittsburgh
University officials        Pittsburgh, PA     7/19/2006     7/20/2006     2           $1,159.29
Hearing, Workforce
Development; Meet with
CEO ,Three Rivers
Workforce Investment
Board, & Director -
Center for Economic
Development, Carnegie
Mellon                      Pittsburgh, PA     8/30/2006     8/31/2006     2            $348.13
TOTAL                                                                                  $8,703.05




                                                  27                                   CLC Secretariat
                                                                          Report No. 21-08-002-01-070
               U.S. Department of Labor – Office of Inspector General




THIS PAGE INTENTIONALLY LEFT BLANK




                28                                   CLC Secretariat
                                        Report No. 21-08-002-01-070
                                              U.S. Department of Labor – Office of Inspector General



                                           Exhibit 4

                                  CLC Secretariat Staffing

    Position                                         Description
Executive Director   The Executive Director is the principal officer in charge of all aspects of
                     the Secretariat, including appointing the staff of the Secretariat;
                     supervising the staff; regulating their powers and duties; and fixing their
                     remuneration.

Director for         Directs the financial budgetary, administrative, and personnel
Administration       management operations of the Secretariat.

Director for         Directs all labor law and economics research activities of the
Research             Secretariat.

Publications         Provides administrative and operational support for the publication
Coordinator          needs of the Secretariat.

Labor/Employment     Provides expert advice on labor law matters within the Secretariat.
Advisor

Labor Economist      Conducts and/or coordinates research and analysis on labor and
(2 positions)        employment law, labor markets and/or employment relations in North
                     America.

Employment           Conducts and/or coordinates research and analysis on labor and
Relations            employment law, labor markets and/or employment relations in North
                     America.

Information          Provides support for all the information, documentation and research
Management           needs of the Secretariat.
Coordinator

Research Editor      Conducts and/or coordinates research and analysis on labor and
                     employment law, labor markets and/or employment relations in North
                     America.

Financial Officer    Responsible for the financial operations of the Secretariat.

Executive            Reports directly and solely to the Executive Director.
Assistant

Receptionist         Assist in maintaining the Secretariat library. Assist with circulation of
                     relevant publications and other research resources.

Administrative       Provides administrative support in the area of logistic preparation for
Assistant            events and workshops organized by the Secretariat.
(2 positions)


                                                29                                  CLC Secretariat
                                                                       Report No. 21-08-002-01-070
               U.S. Department of Labor – Office of Inspector General




THIS PAGE INTENTIONALLY LEFT BLANK




                30                                   CLC Secretariat
                                        Report No. 21-08-002-01-070
                                       U.S. Department of Labor – Office of Inspector General



                                    Exhibit 5

                   CLC Contributions and Expenditures

                                    2003           2004         2005         2006

Deferred Assessment (General
Fund) as of January 1             $1,991,023     $1,987,691   $1,256,054   $1,242,671

Contributions for the Year (net
of assessment credits)            $2,100,000     $1,650,000   $2,100,000   $1,583,664

Percent Change in
Contributions from Prior Year           ------       -21.43      +27.27        -24.59

Assessment Earned (Amount
Spent)                            $2,103,332     $2,381,637   $2,113,383   $2,219,421

Percent Change in
Assessment Earned from Prior
Year                                   -------      +13.23        -11.26       +5.02

Deferred Assessment (General
Fund) as of December 31           $1,987,691     $1,256,054   $1,242,671    $606,916


Assessment Received in
Advance                             $800,000      $200,000     $133,844     $727,399

Total Deferred Assessment
and Assessment Received in
Advance, as of December 31        $2,787,691     $1,456,054   $1,376,515   $1,334,315

Definitions:
Deferred Assessment (General Fund) January 1 – Amount available, beginning of year
Contributions for the Year – Total contributed by all parties, less assessment credits
Assessment Earned – Amount spent for the year
Deferred Assessment (General Fund) December 31 – Amount available, end of year
Assessment Received in Advance – Amount prepaid by a party




                                        31                                    CLC Secretariat
                                                                 Report No. 21-08-002-01-070
               U.S. Department of Labor – Office of Inspector General




THIS PAGE INTENTIONALLY LEFT BLANK




                32                                   CLC Secretariat
                                        Report No. 21-08-002-01-070
             U.S. Department of Labor – Office of Inspector General




Appendices




              33                                   CLC Secretariat
                                      Report No. 21-08-002-01-070
               U.S. Department of Labor – Office of Inspector General




THIS PAGE INTENTIONALLY LEFT BLANK




                34                                   CLC Secretariat
                                        Report No. 21-08-002-01-070
                                           U.S. Department of Labor – Office of Inspector General




                                                                                APPENDIX A
Background

The Commission for Labor Cooperation (CLC)

The Commission for Labor Cooperation (CLC) is a tri-national organization created
under the North American Agreement on Labor Cooperation (NAALC), is commonly
referred to as the labor-side agreement to the North American Free Trade Agreement
(NAFTA). The CLC is formed of a Council of Ministers (the Ministerial Council), a
cabinet-level body in charge of policy setting and decision making, consisting of the
labor minister from Canada and the labor secretaries from the United States Mexico,
and a tri-national Secretariat that provides support to the Ministerial Council and to the
independent Evaluation Committees of Experts and Arbitral Panels the Ministerial
Council may establish under provisions of the Agreement. The CLC works closely with
the National Administrative Offices (NAOs) created by each government within their
own labor ministry to implement the NAALC. The NAOs provide only
administrative/advisory support to both the CLC and the Ministerial Council. In the US
Department of Labor (DOL), the Bureau of International Labor Affairs (ILAB), Office of
Trade and Labor Affairs (OTLA), functions as the National Administrative Office.

Acting as a single entity, the Ministerial Council oversees the implementation of the
NAALC and directs the activities of the Secretariat. The Ministerial Council also
promotes international cooperative activities on a broad range of issues involving labor
law, labor standards, labor relations, and labor markets. The purpose of the CLC is to
conduct research and establish means to protect worker rights and improve labor
conditions of the NAFTA parties.

The Secretariat

The Ministerial Council of the Commission is supported by a Secretariat, whose staff is
drawn equally from the three NAALC countries. The Secretariat includes labor
economists, labor lawyers, and other professionals with experience in labor affairs in the
region. These professionals work in the three official languages of the NAALC –
English, French, and Spanish – a unique tri-national institution devoted to advancing
labor rights and labor standards as an integral part of expanding trade relations.

The Secretariat is headed by an Executive Director, who is chosen by the Ministerial
Council for a 3-year term, which may be renewed by the Ministerial Council for one
additional 3-year term. The position of Executive Director shall rotate consecutively
among nationals of each Party, and the Ministerial Council may remove the Executive
Director solely for cause.

The Executive Director appoints and supervises the staff of the Secretariat, regulates
their powers and duties, and fixes their remuneration in accordance with general
standards to be established by the Ministerial Council. The number of staff positions

                                            35                                   CLC Secretariat
                                                                    Report No. 21-08-002-01-070
                                           U.S. Department of Labor – Office of Inspector General


was initially set at 15, with the provision that the number may be changed by the
Ministerial Council. Located in Washington, DC, the Secretariat undertakes labor-
related research and assists the member countries with their cooperative activities.

The North American Agreement on Labor Cooperation (NAALC) and the North
American Free Trade Act (NAFTA)

The NAALC is a supplemental agreement to NAFTA that entered into force on
January 1, 1994. The objectives of NAALC include improving working conditions and
living standards, promoting a set of guiding labor principles, and encouraging
cooperation to promote innovation and rising levels of productivity and quality. The
NAALC emphasizes cooperation through various means, such as exchanges of
information, technical assistance, and consultations, to achieve its objectives. It also
promotes compliance and effective enforcement by each party of its labor law through
oversight mechanisms.

The NAFTA, implemented on January 1, 1994, is a comprehensive trade agreement
that improves virtually all aspects of doing business within North America. The NAFTA
eliminates nearly all tariffs between the US and Canada and between the US and
Mexico by 2008, and removes many of the non-tariff barriers, such as import licenses,
that have helped to exclude US goods from the other two markets, especially Mexico.

The NAFTA ensures that investment will not be coerced by restrictive government
policies and that US investors receive treatment equal to domestic investors in Mexico
and Canada. At the same time, the extensive easing of cross-border services rules
ensures that if US companies do not wish to invest in another country to provide their
service, they do not have to.




                                            36                                   CLC Secretariat
                                                                    Report No. 21-08-002-01-070
                                         U.S. Department of Labor – Office of Inspector General




                                                                              APPENDIX B

Objectives, Scope, Methodology, and Criteria

Objectives

We performed audit work to answer the following questions:

1. Were CLC internal controls adequate to ensure that the CLC Secretariat activities
   and expenditures supported its mission?

2. What contributed to the decline in the CLC General Fund balance?

Scope

We conducted audit fieldwork at CLC Headquarters in Washington DC from May
through September 2007 and reviewed expenditures and related policies and
procedures primarily from 2004 through 2006. While the audit focused on expenditures
during the former Executive Director’s tenure, August 2004 to October 2006, we also
examined CLC records and expenditures from January 2002 to July 2004 for
comparison purposes.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.

Methodology

Expenditures – 2004 to 2006. To determine whether expenditures during Mr. Knouse’s
tenure as Executive Director of the CLC Secretariat (August 2004 to October 2006)
were proper, we reviewed general ledger transactions and available supporting
documentation related to the following:

       Home Leave
       Educational Allowance
       Travel
       Procurement
       Staff Performance
       Hospitality Expenses
       Relocation




                                          37                                   CLC Secretariat
                                                                  Report No. 21-08-002-01-070
                                            U.S. Department of Labor – Office of Inspector General


We then evaluated these expenditures for compliance with related policies and
procedures and relevance to the CLC mission. We also reviewed employment
agreements to identify applicable benefits and to ascertain position descriptions for
employees hired during the period. In addition, we interviewed CLC employees to
obtain an understanding and walk-through of internal controls as well as an explanation
of errors and deficiencies identified and how and why certain expenditures were
incurred.

Expenditures – 2004 to 2006 vs. 2002 to 2004. To determine whether expenses
incurred from August 1, 2004 to October 31, 2006 were comparable to those of the prior
director, we reviewed general ledger transactions and supporting documentation for
expenses incurred from January 1, 2002 to July 31, 2004 that fell within the following
categories:

      Home Leave
      Educational Allowance
      Travel
      Procurement
      Staff Performance
      Hospitality Expenses
      Relocation

We also tested expenditures to determine compliance with policies and procedures.
Finally, we interviewed CLC employees to obtain additional information regarding
similarities and differences in expenditures and related activities and to identify possible
causes for differences.

General Fund. To determine whether annual country contributions and spending from
2004 through 2006 contributed to the alleged depletion of the General Fund, we
reviewed the financial statements and budget information for the period. We also
identified the contributions provided by each member country, per the NAALC
agreement, and reviewed revenues and expenses incurred to determine year-end
balances during the period. In addition, we identified increases in specific expense
categories for each year and inquired from the appropriate sources through interviews
about the reasons for these increases. Finally, we reviewed policies and procedures
regarding the General Fund and determined compliance.

Internal Controls. We used the definition of Internal Controls from the Committee on
Sponsoring Organizations of Treadway Commission (COSO), to identify key controls.
To determine whether internal controls were adequate, we reviewed the content of
written rules, policies and procedures to gain an understanding of day-to-day
operations. We interviewed CLC Secretariat staff and conducted a walk-through of CLC
accounting and administrative processes to determine the existence and adequacy of
internal controls for the following:




                                             38                                   CLC Secretariat
                                                                     Report No. 21-08-002-01-070
                                            U.S. Department of Labor – Office of Inspector General




      Home leave
      Educational Allowance
      Travel
      Procurement
      Staff Performance
      Hospitality Expenses
      Relocation

Reliability of Computer-Generated Data. To achieve our objectives we relied on
computer-generated data contained in the general ledger. We assessed and conducted
sufficient test of the data, and found them to be adequate. Based on these tests, we
conclude the data are sufficiently reliable to be used in meeting the assignment
objectives. .

Criteria

We identified and used criteria included in the following to perform this audit:

CLC Personnel Rules, Policies, Procedures, and Forms:

   Rules of Employment (amended September 1, 2005)
       •   Rule 4 – Authority of the Executive Director
       •   Rule 5 – Accountability of the Executive Director
       •   Rule 14 – Staff
       •   Rule 15 – Council oversight of Staff Appointments
       •   Rule 16 – Offer of Employment
       •   Rule 17 – Relocation of Professional Staff and Executive Director
       •   Rule 19 – Temporary Staff
       •   Rule 24 – Performance Appraisal
       •   Rule 26 – Hospitality and Representation
       •   Rule 30 – Home Leave
       •   Rule 39 – Official Travel
   Relocation and Home Leave Policy (amended July 12, 1995)
   Temporary Research Assistant Policy (amended May 2005)
   Financial Rules (amended September 1, 2005)
       •   Rule 2 – Responsibility and Authority
       •   Rule 5.6 & 45 – Budget and Plan of Activities

                                             39                                   CLC Secretariat
                                                                     Report No. 21-08-002-01-070
                                        U.S. Department of Labor – Office of Inspector General



     •   Rule 6 – Contributions available to the Commission
     •   Rule 6.7 – Contributions available to the Commission
         (amended January 1, 2006)
     •   Rule 8 - Accounts
  Financial Policies & Procedures (May 1999)
     •   Accounting Policy 2.0 – Purchase Authority & Accounts Payable
     •   Accounting Policy 2.1 – Contracting
     •   Accounting Policy 2.2 – Service Contracts
     •   Accounting Policy 4.0 – Business Travel
     •   Accounting Policy 5.0 – Employee Relocation and Home Leave
     •   Accounting Policy 8.0 – Accounting Methods
     •   Accounting Policy 9.0 – Accounting Records
  Policies and Procedures for the Council
  NAALC Agreement – Part Three – The Commission for Labor Cooperation
     (Final Draft dated September 13, 1993)
  The CLC Council Resolution 95-5 on Reimbursement of Educational Expenses
     (dated April 19, 1995)
Committee on Sponsoring Organizations of Treadway Commission, “Internal
Control – Integrated Framework”




                                         40                                   CLC Secretariat
                                                                 Report No. 21-08-002-01-070
                                         U.S. Department of Labor – Office of Inspector General



                                                                                Appendix C
Acronyms and Abbreviations

CD         Council Designee
CLC        Commission for Labor Cooperation
DOL        Department of Labor
GAO        Government Accountability Office
ILAB       Bureau of International Labor Affairs
NAALC      North American Agreement on Labor Cooperation
NAFTA      North American Free Trade Agreement
NAO        National Administrative Office
OIG        Office of Inspector General
OTAI       Office of Trade Agreement Implementation
OTLA       Office of Trade and Labor Affairs




                                          41                                   CLC Secretariat
                                                                  Report No. 21-08-002-01-070
               U.S. Department of Labor – Office of Inspector General




THIS PAGE INTENTIONALLY LEFT BLANK




                42                                   CLC Secretariat
                                        Report No. 21-08-002-01-070
                           U.S. Department of Labor – Office of Inspector General




                                                                  Appendix D
Response to Draft Report




                            43                                   CLC Secretariat
                                                    Report No. 21-08-002-01-070
U.S. Department of Labor – Office of Inspector General




 44                                   CLC Secretariat
                         Report No. 21-08-002-01-070
U.S. Department of Labor – Office of Inspector General




 45                                   CLC Secretariat
                         Report No. 21-08-002-01-070
                                   U.S. Department of Labor – Office of Inspector General




IN ORDER TO REPORT FRAUD, WASTE OR ABUSE, PLEASE CONTACT:

Online:       http://www.oig.dol.gov/hotlineform.htm
Email:        hotline@oig.dol.gov

Telephone:    1-800-347-3756
              202-693-6999

Fax:          202-693-7020

Address:      Office of Inspector General
              U.S. Department of Labor
              200 Constitution Avenue, N.W.
              Washington, D.C. 20210




                                    46                                   CLC Secretariat
                                                            Report No. 21-08-002-01-070
